                     Review of the Audit and Compliance Section
                      In the RRB’s Bureau of Fiscal Operations
                        Report No. 02-13, September 17, 2002

This report represents the results of the Office of Inspector General’s (OIG) review of
the Audit and Compliance Section (ACS) in the Railroad Retirement Board’s (RRB)
Bureau of Fiscal Operations.

BACKGROUND

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2001, the RRB paid approximately $8.5 billion in railroad retirement and survivor
benefits to about 700,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $94.4 million to some 40,000 claimants.

Prior to 1991, the OIG developed and implemented a program to audit the payroll
records of railroad employers. In 1991, the U.S. District Court, Northern District of
Texas, ruled that the OIG lacked statutory authority to conduct tax compliance audits.
On March 19, 1993, the agency’s Board Members approved the establishment of the
ACS within the Bureau of Fiscal Operations.

ACS conducts external audits of employers to ensure compliance under the Railroad
Retirement Act (RRA) and Railroad Unemployment Insurance Act (RUIA), and verifies
the accuracy of reported compensation and contributions. Although the section does
not have the authority to audit taxes under the Railroad Retirement Tax Act (RRTA), its
staff reviews the compensation amounts on which these payroll taxes are based.

In October 1999, the RRB and the Internal Revenue Service (IRS) implemented a
coordination agreement for the administration of the RRTA by the IRS and the RRB’s
administration of the RRA. The IRS has also performed on-site safeguard reviews of
ACS to evaluate the effectiveness of the RRB’s measures to protect Federal tax data.
The IRS conducted its most recent reviews on October 24-26, 2000 and March 23,
2001.

An error in reporting compensation generally results in a related error in reporting
railroad retirement tax liability. ACS informs employers of additional potential railroad
retirement tax liability, recommends that they report these amounts to the IRS, and
provides employer audit results to the IRS.

ACS also gathers, verifies, and analyzes activities of employers and employees in
support of the Board’s coverage determinations under the RRA and the RUIA. This
effort helps to ensure that those employees who work in the railroad industry receive the
retirement and insurance benefits of coverage. ACS submits coverage cases to the
Office of General Counsel (OGC), which drafts a preliminary decision that is forwarded
to the Board for a formal determination.
For calendar year 2001, railroads reported to the RRB nearly $28.5 billion in total
compensation. During FY 2001, railroads paid approximately $4.7 billion in railroad
retirement taxes and $50.7 million in RUIA contributions.

ACS currently consists of eight employees, including five auditors, one coverage
specialist, one compliance management analyst, and one computer specialist. The
administrative cost (salaries and equipment) for FY 2001 was approximately $625,000.

In 1994, the Board Members approved general guidance procedures for ACS. The
section follows the guidance provided by the General Accounting Office’s Government
Auditing Standards, commonly referred to as generally accepted government auditing
standards (GAGAS). The section has prepared an audit guide that provides additional
guidance for employer audits, and a coverage guide that provides guidance to auditors
in addressing coverage issues.

The activities of ACS support the RRB strategic plan’s goal to safeguard customers’
trust funds through prudent stewardship. Employer audits and information gathered for
determination of coverage allow the agency to ensure that railroad compensation and
contributions are accurately reported.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this review was to assess the effectiveness of the ACS. The scope
included its operations and activities from October 1999 through August 2002.

To accomplish the audit objective, we performed the audit steps detailed below:

•   Reviewed the prior OIG audit findings (OIG Report No. 97-01, November 1, 1996);

•	 Reviewed applicable laws, regulations, policies and procedures, including the
   GAGAS, operating procedures, the coverage guide, and the audit guide;

•	 Examined various reports that contained information on operations, work volume,
   rotation of employer audits, staffing levels and administrative costs, and analyzed
   trends relating to this data;

•   Examined workpapers for a judgmental sample of seven employer audits;

•   Reviewed document files for a judgmental sample of 33 coverage cases;

•	 Examined the coordination and implementation agreement between the RRB and
   the IRS, and reviewed the most recent IRS safeguard report;

•   Assessed coordination efforts between ACS and OIG’s Office of Investigations;

•   Held various discussions with ACS staff and management; and


                                            1

•   Held discussions with OGC management.

The OIG conducted the audit in accordance with generally accepted government
auditing standards appropriate to this review. Auditors performed the fieldwork at the
RRB headquarters office in Chicago, Illinois from March through August 2002.

                                     RESULTS OF REVIEW

Our review determined that ACS is generally performing its work according to Board-
approved operating procedures. However, changes are needed in conducting employer
audits to ensure more frequent audits of some of the larger railroads and consistent
compliance with auditing standards and procedures. Improvements are needed for
coverage reviews to ensure more timely coverage decisions, accurate reporting of the
status of coverage cases, effective usage of reports that assess the status of coverage
cases, and adequate documentation of procedures.

Detailed findings and recommendations are discussed below.


EMPLOYER AUDITS

A timely and effective employer audit improves the accuracy of compensation reported
for benefit computations and impacts the taxes and contributions paid by employers to
fund benefit payments. Our review of a sample of employer audits and operating
procedures determined that ACS is generally performing employer audits effectively.

ACS chooses audits from two groups of railroad employers, Class I and non-Class I.
There are seven Class I railroads, employers with annual operating revenues of $256.4
million or more. All other railroads are considered non-Class I. Our review determined
that the audit rotation method for Class I employers is in compliance with Board-
approved operating procedures, but ACS has not frequently audited a significant portion
of the 50 largest non-Class I railroad employers. In addition, we determined that ACS
does not always follow applicable standards and procedures for performing employer
audits.

Infrequent Audits of Larger Non-Class I Railroads

Since the inception of ACS in 1993, the section has not audited 18 of the 50 largest
non-Class I railroad employers.1 The 18 unaudited non-Class I railroads had combined
compensation of approximately $640 million in FY 2001. Of the railroad audits
conducted by the section, 14 of the largest non-Class I railroads were audited five or
more years ago. These 14 non-Class I railroads had combined compensation of nearly

1
  The OIG judgmentally selected the top 50 non-class I railroads in terms of the highest reported
compensation for calendar year 2001 to determine when ACS last audited them. For 10 of the 18
railroads not audited by ACS, the OIG performed audits from 1990 through 1993. In addition, two
railroads could not be audited because they are recent employers and had not accumulated three years
worth of reporting history until 2002.

                                                  2

$5.6 billion in 2001. Also, the section has not re-reviewed any of the larger non-Class I
employers.

According to Board approved operating procedures, the larger non-Class I employers
will be selected for audit based on auditing priorities and available resources, with
additional weight being given to reviewing large non-Class I employers more frequently
than smaller organizations.

The ACS has not adequately implemented Board operating procedures in order to
ensure timely and frequent audits of larger non-class I railroads. ACS management has
not defined the compensation criteria for larger non-class I railroads. ACS management
explained that they plan to perform reviews of all larger non-Class I railroads before
auditing those that have already been audited, regardless of whether ACS or the OIG
performed the audit, and regardless of how long ago the audit took place. ACS also
commented that limited staff resources have prevented the section from reviewing some
non-Class I railroads more timely. The section lost two auditors prior to FY 2000 that
have not been replaced.

Given the current workload, it will take many years for the section to audit all the larger
railroads before reviewing them again. A risk of not auditing the larger railroads more
frequently is that the RRB trust funds could be due additional, unrecognized funds in the
form of railroad retirement taxes and contributions that result from ACS audit findings.
The IRS may not be able to collect some of the additional potential railroad retirement
tax since section 6501(a) of the Internal Revenue Code generally prohibits the
assessment of any additional tax beginning 3 years after a return is filed. Section 8(k)
of the RUIA incorporates the same 3-year statute of limitations for the assessment of
contributions. Also, employees may lose creditable service and compensation because
Section 9 of the Railroad Retirement Act provides for a four-year time limit for reporting
credible service and compensation by employers.

Recommendation

The Audit and Compliance Section should reassess policies for performing employer
audits by defining the criteria for larger non-Class I railroads, reviewing its audit
selection process, and examining staff resources to ensure more frequent and timely
audits of the larger non-Class I railroads (Recommendation #1).

Management’s Response

The Audit and Compliance Section concurs with the recommendation, except for further
defining the criteria for larger non-Class I railroads. The section believes that the
current Board-approved operating procedures adequately define the larger non-Class I
railroads. ACS also advised that, while additional staffing would allow the section to
perform more employer audits, the agency has downsized significantly over the past
decade and may be facing a hiring freeze in fiscal year 2003. The section will re-
evaluate the audit selection process by July 2003. A complete copy of the response is
included in Attachment I.

                                             3

OIG Comments

The OIG disagrees with ACS concerning the Board-approved operating procedures.
These procedures state that for employer audits: “The second category shall include the
larger non-class I employers. These employers will be selected for audit based on
auditing priorities and available resources, with additional weight being given to
reviewing large non-Class I employers more frequently than smaller organizations.”
These Board procedures provide overall, general direction and it is therefore the
responsibility of ACS to provide a more specific compensation criteria defining larger
non-Class I railroads in order to fully implement the Board’s directive for more frequent
audits of these railroads. In our discussions with ACS management, they indicated that
they had not defined such criteria. While ACS has stated that they have audited 58% of
the larger non-Class I employers, the fact that ACS has been in existence for about nine
years indicates to the OIG that, without defining compensation criteria, it will take many
years for the section to audit all the larger railroads before reviewing them again. The
OIG did not verify the extent of audits performed for the Class II and Class III
employers.

Lack of Consistency in Following Audit Guide Procedures

ACS does not consistently follow the audit guide procedures for documenting and
reviewing the workpapers. The OIG found exceptions in which some workpapers
lacked properly documented conclusions. The OIG also found that the audit guide was
not always reviewed monthly.

GAGAS states that workpapers aid the auditors in conducting and supervising the audit
and allow others to review the audit’s quality. It also states that workpapers often are
subject to review by other auditors and oversight officials. The implementation
agreement between the RRB and the IRS indicates that the RRB will forward copies of
any workpapers requested by the IRS.

The ACS audit guide requires that each workpaper group contain the name of the
employer, purpose, source, and conclusion of the workpaper. A copy of the audit guide
is included in the workpapers because it contains specific audit objectives and steps.
The guide indicates that the ACS Chief should review this copy on a monthly basis.

ACS does not verify that the workpaper documentation meets the requirements
specified in the audit guide because ACS management believes that the workpaper
documentation and preparation is sufficient given the small size and extensive
experience of the staff. The Chief of ACS believes that there is no need to review the
audit guide monthly because he remains informed of the progress of each review
through regular, informal discussions. However, the OIG believes that a workpaper
checklist detailing major documentation and supervisory requirements would help to
ensure the proper completion of work papers and frequency of supervisory review.

A risk of these conditions is that ACS staff may not satisfactorily complete their audit
objective and audit steps. Credibility of the findings could possibly be challenged if ACS
does not consistently document and review workpapers according to its audit guide and
                                            4

the standards. In addition, it could take more time and effort for the IRS or another third
party to understand the work completed.

Recommendation

The Audit and Compliance Section should ensure that audit staff follows the audit guide
procedures by implementing the use of a workpaper checklist to validate the major
requirements for documentation and supervisory review (Recommendation #2).

Management’s Response

The Audit and Compliance Section concurs with the recommendation and will
implement a workpaper checklist by October 2002. A complete copy of the response is
included in Attachment I.

GAGAS Compliance Statement Not Consistently Included in ACS Audit Reports

The ACS employer audit reports do not always state that the reviews were conducted in
accordance with GAGAS. Government Auditing Standards (1994 Revision), Sections
5.11 and 7.24, contains a reporting standard requiring that the audit reports should state
that the audit was performed in accordance with GAGAS. The statement should be
qualified in situations where the auditors did not comply with an applicable standard and
an explanation should be provided.

GAGAS, which have been published since 1972, are broad statements of auditors’
responsibilities and provide credible assurance of high quality audit effort,
documentation and results. The agency’s reliance on ACS auditors to perform
comprehensive audits of railroad employers enhances the vital need to follow GAGAS.
In addition, the implementation agreement between the agency and the IRS suggests
that the IRS would have high interest in ACS audit reports and would seek reliance on
their audit work.

ACS management advised the OIG that they follow GAGAS in performing employer
audits. However, ACS improperly omitted the GAGAS statement in some audit reports
due to oversight. If the GAGAS statement is not included in the employer audit report,
the agency and the IRS may not realize that ACS is complying with an important and
trustworthy standard. This may possibly put at risk the reliance of the agency and the
IRS on the work and results of employer audits performed by ACS.

Recommendation

The Audit and Compliance Section should include a statement of compliance with
GAGAS in all audit reports or include an explanation when there is a departure from the
standards (Recommendation #3).

Management’s Response



                                             5

The Audit and Compliance Section concurs with the recommendation and has already
begun including the GAGAS statement in all audit reports issued after August 15, 2002.
A complete copy of the response is included in Attachment I.

COVERAGE REVIEWS

An effective coverage review program helps to ensure that the appropriate taxes and
contributions are collected to support the railroad retirement and unemployment and
sickness insurance programs. Our review of a sample of coverage cases and the
operating procedures in this area determined that improvements are needed to ensure
more effective coverage decisions. There are no documented guidelines for the
coverage specialist and compliance management analyst. ACS does not always follow
set timeframes for the release of letters to the employer to enable the Board to make
timely coverage determinations. ACS does not have follow-up procedures on cases
sent to OGC for a decision. Also, ACS maintains a coverage control log as a monthly
management report with data on the current status of coverage cases, but this log is
inaccurate and is not always used to identify old cases.

Lack of Written Procedures

There are no written guidelines for coverage reviews that support the general Board
operating procedures.

Board operating procedures provide general guidance. According to the Board
procedures, coverage reviews shall consist of conventional fact finding methods,
including requests for information by way of correspondence.

Sound management practices call for written procedures. The coverage examiners
follow guidelines developed by the RRB division that previously had responsibility for
coverage development. The prior division did not document the guidelines, and ACS
also did not document guidelines because of the extensive experience and knowledge
of the coverage staff.

Written guidelines would aid in the training of a new coverage staff employee. Lack of
documented guidelines makes it more difficult to timely and properly complete coverage
reviews if one of the coverage employees left or went on extended leave.

Written guidelines would also ensure that cases are handled consistently, such as
obtaining fact-finding information and following up on requests. Our review determined
that the lack of documented guidelines for the follow-up timeframes for letters
contributed to the inefficient processing of cases. We also determined that the lack of
documented guidelines that explained the preparation, update and use of the control log
contributed to inaccurate dates in the ACS coverage control log.

Recommendations

The Audit and Compliance Section should:

                                           6

•	 Document detailed guidelines that support the Board operating procedures for the
   coverage reviews conducted by coverage specialists (Recommendation #4).

•	 Include the follow-up timeframes for letters in the documented guidelines
   (Recommendation #5).

•	 Include the preparation, update and use of the control log in the documented
   guidelines (Recommendation #6).

Management’s Response

The Audit and Compliance Section agrees with the recommendations and will prepare
guidelines for coverage reviews by February 2003. A complete copy of the response is
included in Attachment I.

Inefficient Processing Leads to Untimely Coverage Decisions

Coverage cases are not always processed efficiently to ensure timely coverage
decisions. The OIG’s sample review determined that ACS does not always send timely
follow-up letters to the employers. In addition, ACS does not follow up on cases that it
sends to the OGC.

The procedure that coverage specialists have implemented to obtain information from
the employer includes follow-up timeframes of 30 days after their initial contact for
sending a second letter, 25 days for the third letter and 20 days for the fourth letter.
However, ACS has not documented the timeframe guidelines for these follow-up letters.
In addition, the call-up system of manually inserting reminder notices into coverage
case files is ineffective in ensuring timely follow-up. ACS also does not have any
documented timeframe criteria or procedures for following up on cases sent to the
OGC.

Delays in obtaining information from the employer contribute to lengthening the time it
takes to make a coverage decision. From a judgmental sample of 33 cases, the OIG
identified 12 cases with follow-up letters released 9 to 118 days late. Each case had
one or more untimely letters. Lack of follow-up on cases sent to the OGC increases the
risk that a coverage decision may not be timely. For example, as a result of this review,
the RRB discovered that one case had not been submitted to the Board for a coverage
decision. The case was to be submitted in May 2001 but the actual submission did not
occur until June 2002.

Recommendation

The Audit and Compliance Section should establish and document timeframe guidelines
to follow-up on cases sent to the Office of General Counsel for which no request or
decision has been received (Recommendation #7).




                                            7

Management’s Response

The Audit and Compliance Section concurs with the recommendation and has partially
implemented the recommendation by establishing the guidelines. A complete copy of
the response is included in Attachment I.


Control Log Is Inaccurate and Is Not Used Effectively

The ACS coverage control log is inaccurate and the log is not always used to identify
old cases. The OIG determined that case opening dates recorded in the log are
sometimes incorrect, and the log pending list is not always updated to record recent
activity.

The control log contains detailed status comments as well as the dates that the cases
were opened, closed, and sent to the OGC. These cases appear on the ACS control
log’s pending list. Every quarter, ACS sends the control log to all Board Members’
offices as well as to management in the Bureau of Fiscal Operations and the Office of
Programs. The control log is reviewed by ACS management to ensure timely follow-up
of all coverage determinations according to a risk assessment prepared by the section.

In our sample review, we found one case that was a year older than the log indicated
due to an inaccurate opening date that was entered into the log. We also identified
several cases that remained on the pending list for which the Board Members had
already rendered a decision in a previous year.

In addition to the entry of inaccurate dates into the log due to the lack of written
guidelines, ACS is not effectively using the log to track timeliness, and to identify and
resolve old coverage cases.

Inaccuracies in the control log data result in improperly depicting the status of some
cases pending a coverage decision and the true age of some open cases. Inaccuracies
also increase the risk that a coverage case will not be handled timely or properly, and
impacts reporting of compensation and collection of taxes and contributions. For one
OIG sample case, ACS discovered that it should have secured the railroad identification
number in 1998. 2 A railroad identification number is typically secured for the purpose of
the railroad to begin reporting compensation and paying contributions and taxes.




2
  ACS management secured the railroad identification number after we brought this to their attention.
There was no financial impact because this railroad had no employees. However, such an omission for a
railroad with employees could have led to non-reporting of compensation and non-payment of taxes and
contributions for several years, and possible losses in revenues for the RRB’s trust funds.

                                                  8

Recommendations


The Audit and Compliance Section should:


•	 Develop an automated system to ensure timely follow-up letters and contacts with
   the employers, the Office of General Counsel, and other parties (Recommendation
   #8).

•	 Use the control log to track timeliness and identify old, unresolved cases
   (Recommendation #9).

Management’s Response

The Audit and Compliance Section concurs with Recommendation #8 and will modify
the control log database to include follow-up information by February 2003. ACS also
agrees with Recommendation #9 and has already updated the control log to include
aging data that tracks timeliness and identifies old, unresolved cases. A complete copy
of the response is included in Attachment I.




                                            9

